fa

@OCKLE

* E-Mail Address:
L ega 1 Brie fs contact@cocklelegalbriefs.com

2311 Douglas Street

Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No,

ANGEL M. AYALA VAZQUEZ,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 1986 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 29th day of May, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL ROTARY-State of Mebraska f CAL;
ah RENEE. c08s Kense. Q. Lesa Ondiaw-h.
My Comm. Exp. September 5, 2023 | *

AY
Notary Public Affiant 39773

     
   

 

 
